        OFFICE OF JUSTICE PROGRAMS
EDWARD BYRNE MEMORIAL DISCRETIONARY GRANTS
       AWARDED TO THE BALTIMORE CITY
  HEALTH DEPARTMENT, BALTIMORE, MARYLAND




          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


          Audit Report GR-30-12-004
                 August 2012
          OFFICE OF JUSTICE PROGRAMS
 EDWARD BYRNE MEMORIAL DISCRETIONARY GRANTS
AWARDED TO THE BALTIMORE CITY HEALTH DEPARTMENT
             BALTIMORE, MARYLAND

                        EXECUTIVE SUMMARY

        The Edward Byrne Memorial Discretionary Grant Programs (Byrne
Grants), administered by the Office of Justice Programs, Bureau of Justice
Assistance, assist communities to improve state and local justice systems,
including strategies to reduce violent crime through community-based, data-
driven programs. In 2005, the Baltimore City Health Department (Baltimore
or grantee) received Byrne award number 2005-DD-BX-1233 (2005 grant)
totaling $1,479,965 to initiate a neighborhood-based, anti-violence program
called “Safe Streets.” In 2009, Baltimore received Byrne award, number
2009-SC-B9-0129 (2009 grant) for $1 million to continue its Safe Streets
initiative. This award was funded as part of the American Reinvestment and
Recovery Act of 2009 (Recovery Act).

Recovery Act

      In February 2009, Congress passed the Recovery Act to help create
jobs, stimulate the economy and investment in long term growth, and foster
accountability and transparency in government spending. The Department
of Justice received $4 billion in Recovery funds, of which $125 million was
made available through the Edward Byrne Memorial Competitive Grant
Program. Recipients of Recovery Act funds are required to report quarterly
to the FederalReporting.gov website on how they spent their Recovery Act
funds and the number of jobs created or saved.

Audit Results

      The objectives of the audit were to determine whether Baltimore used
grant funds for costs that were allowable, supported, and in accordance with
applicable laws, regulations, and the terms and conditions of the grants, and
to assess program performance and accomplishments. To accomplish these
objectives, we tested whether Baltimore complied with essential grant
conditions pertaining to: (1) internal controls; (2) grant drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) financial and progress reports; (6) Recovery
Act reporting; (7) program performance and accomplishments; and
(8) monitoring of sub-recipients. Based on a review of the award


                                      i
applications and expenditure activity, we determined that the awards did not
include any matching costs or program income.

       The audit found that the grantee:

       •   Needs to strengthen its financial system controls so that future
           grant expenses are allocated to and tracked by the correct
           accounting code.

       •   Needs to implement procedures that ensure future financial reports
           are accurate in that they agree with the official accounting records.

       •   Drew down from the 2005 grant $24,746 in excess of general
           ledger expenditures. 1

       •   Did not have adequate supporting documents for $24,735 of 2005
           grant expenses and $13,619 in 2009 grant expenses.

       •   Spent $6,157 of 2005 grant funds on unallowable costs.

      The Findings and Recommendations section of the report details these
issues further. Our audit objectives, scope, and methodology appear in
Appendix I.




       1
         OJP’s minimum cash on hand requirements state that recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum needed for
disbursements and reimbursements to be made immediately or within 10 days.


                                            ii
                                TABLE OF CONTENTS


INTRODUCTION .................................................................................1

       Background ................................................................................. 2
       Audit Approach ............................................................................ 2

FINDINGS AND RECOMMENDATIONS.................................................4

       Internal Control Environment ......................................................... 4
       Reporting .................................................................................... 6
       Drawdowns ................................................................................. 8
       Grant Expenditures ...................................................................... 9
       Supplanting ............................................................................... 13
       Management and Monitoring of Contractors ................................... 14
       Budget Management and Control ................................................. 14
       Program Performance Measures and Accomplishments.................... 15
       Recommendations ...................................................................... 16

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY ................17

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ............19

APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
DRAFT AUDIT REPORT .....................................................................20

APPENDIX IV – BALTIMORE CITY HEALTH DEPARTMENT’S RESPONSE
TO THE DRAFT AUDIT REPORT .........................................................23

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ...........29
                                 INTRODUCTION

      The Office of Justice Programs (OJP), Bureau of Justice Assistance,
administers the Edward Byrne Memorial Discretionary Grant programs
(Byrne grants) to provide support for local efforts to improve the functioning
of the criminal justice system, including strategies to reduce violent crime
through community-based, data-driven programs.

      The Department of Justice Office of the Inspector General (OIG) has
completed an audit of two Byrne grants awarded to the Baltimore City
Health Department (Baltimore or grantee). The objectives of the audit were
to determine whether Baltimore used grant funds for costs that were
allowable, supported, and in accordance with applicable laws, regulations,
and the terms and conditions of the grants, and to assess program
performance and accomplishments.

      Exhibit 1 lists the two Baltimore Byrne grants reviewed by this audit.
The first award, grant number 2005-DD-BX-1233 (2005 grant), totaled
$1,479,965 and was congressionally mandated. The second award, grant
number 2009-SC-B9-0129 (2009 grant), totaled $1,000,000, and was
funded as part of the American Reinvestment and Recovery Act of 2009
(Recovery Act). 2

                  EXHIBIT 1: BALTIMORE BYRNE GRANTS

                             Award Start        Award End         Award Amount
       Grant Award
                                 Date              Date                ($)
    2005-DD-BX-1233          06/01/2005         11/30/2009             1,479,965
    2009-SC-B9-0129          08/01/2009         07/31/2011             1,000,000
                                                      Total:        $ 2,479,965
   Source: Office of Justice Programs

      The   purpose of the Byrne grants shown in Exhibit 1 was to support
Baltimore   City Health Department efforts to implement a local “Safe Streets”
program.    Safe Streets specifically sought to develop projects in targeted
Baltimore   neighborhoods to intervene with teenagers and young adults at

      2
         In February 2009, Congress passed the Recovery Act to help create jobs, stimulate
the economy and investment in long-term growth, and foster accountability and transparency
in government spending. Recipients of Recovery Act grants are required to report quarterly
to FederalReporting.gov on how they spent their Recovery Act funds and the number of jobs
created or saved. The Department of Justice received $4 billion in Recovery Act funds, of
which $125 million was made available through the Edward Byrne Memorial Discretionary
Grant Program.


                                            1
risk of committing violent crimes. The goals of the Safe Streets initiative
included: (1) reducing the incidence of murder and other violent crime,
(2) mobilizing community members against violent crime, and (3) providing
services and conflict intervention skills to members of the Baltimore
community.

Background

       The Baltimore City Health Department is an agency of the City of
Baltimore government. Its mission is to advocate, lead, and provide
services that promote and protect the health of the residents of Baltimore.
Baltimore established its Office of Youth Violence Prevention in October 2002
to combat an epidemic of violence among Baltimore’s youth and support
traditional public safety strategies using a combination of public health and
human service models to reduce violence.

      According to the grantee, the City of Baltimore’s homicide rate has
proved intractable. After the number of homicides in the city jumped almost
7 percent between 2002 and 2003, the Office of Youth Violence Prevention
began its Safe Streets initiative based on another program first implemented
in Chicago called “CeaseFire.” A Northwestern University evaluation of
Chicago’s Ceasefire initiative concluded that it contributed to a significant
decline in shootings and gang-related homicides.

Audit Approach

      To accomplish the objectives of the audit, we tested compliance with
what we consider the most important conditions of the grant. Unless
otherwise stated in our report, the criteria we applied to evaluate compliance
are provided by the OJP Financial Guide, issued by OJP to assist grantees in
following requirements to safeguard federal award funds. Specifically, we
tested compliance with the following applicable grant requirements:

   •   Internal control environment to determine whether the internal
       controls in place for processing and payment of funds were adequate
       to safeguard grant funds and comply with grant terms and conditions.

   •   Reporting to determine if the award recipient submitted complete and
       accurate Financial Status and Federal Financial Reports, activity
       progress reports, and quarterly Recovery Act Reports as required.




                                      2
  •   Drawdowns to determine if Baltimore properly managed grant
      receipts in accordance with federal requirements.

  •   Grant expenditures to determine whether costs charged to the grant
      were accurately recorded, adequately documented, and allowable.

  •   Supplanting to ensure that Baltimore used applicable award funds to
      supplement and not replace existing program funds.

  •   Management of contractors to evaluate whether Baltimore ensured
      that contractors tracked and safeguarded award funds.

  •   Budget management and control to ensure that the award recipient
      did not make excessive transfers of funds between budget categories
      without prior approval.

  •   Program performance measures and accomplishments to
      determine if the award recipient met or is capable of meeting the
      objectives of the reviewed grants.

      The awards received by the grantee did not include matching
requirements and did not generate program income. The Findings and
Recommendations section of the report details the results of our analysis.
Our audit objectives, scope, and methodology are further detailed in
Appendix I.




                                      3
               FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

      The Baltimore City Health Department (Baltimore) prepared
      inaccurate financial reports, did not require employees working
      on multiple projects document time spent on grant activities,
      and charged the grants a total of $6,157 in unallowable costs
      and $63,100 in unsupported costs. As a result, this audit
      recommends that OJP remedy $69,257 in grant charges.

Internal Control Environment

      Throughout the audit, we consulted the Baltimore Comprehensive
Annual Financial Audit Reports (Single Audits) for its fiscal years (FY) ending
June 30, 2009 and June 30, 2010. We also reviewed the systems, policies,
and procedures employed by Baltimore employees to track and safeguard
Byrne grant funds and assess their risk of non-compliance with laws,
regulations, and other conditions of the awards. We interviewed and
observed employees of several different city offices (such as payroll,
purchasing, and accounts payable) to review how they approve grant fund
purchases, track obligations, and process payments paid for with award
funds.

Financial Management System

       Baltimore used a city-wide accounting system to process grant
transactions. Within the accounting system, Baltimore established separate
sub-accounting codes with which it identified grant-related transactions. We
found that Baltimore began using its new accounting system in March 2009,
which was toward the end of the 2005 grant’s performance period.
However, we were told that Baltimore encountered software problems while
it converted data from the old accounting system to the new accounting
system. These problems resulted in transactions not being mapped between
different sub-accounts correctly and the loss of transaction dates for entries
occurring before the conversion. Baltimore officials also explained that grant
expenses within each sub-accounting code were transferred to the new
system by month. As a result, we found that: (1) the first transaction listed
in the new accounting system for the account code reserved for the 2005
grant showed that the first transaction had a posting date in 2008 (even
though the first transaction took place in 2005), and (2) multiple
transactions within sub-accounting codes during a given month were
reflected as a single transaction in the new accounting system.


                                       4
       Further, ledgers generated from the new accounting system contained
many adjusted and reversed entries. Although some of the corrected entries
can be explained by issues Baltimore encountered while converting to its
new accounting system, the sheer number of reversal entries leads us to
believe that Baltimore should improve how it identifies and tracks individual
grant charges. For example, Baltimore captured all 2009 grant payroll costs
in an incorrect accounting code. This resulted in the 2009 grant not being
charged any salary or fringe benefit costs until an adjusted journal entry was
made during our fieldwork. Therefore, we recommend that the OJP require
that Baltimore strengthens its financial system controls so that future grant
expenses are allocated to and tracked by the correct accounting code.

Single Audits

       According to Office of Management and Budget (OMB) Circular A-133,
Audits of States, Local Governments, and Non-Profit Organizations, non-
federal entities that expend $500,000 or more in federal awards in a year
shall have a Single Audit conducted annually and due no later than 9 months
after the end of the fiscal year. 3

       For this audit, the most recent Single Audit was for Baltimore Fiscal
Year 2010, which ended on June 30, 2010. We reviewed the findings of
Baltimore Single Audits for FYs 2009 and 2010 and determined there were
no findings that specifically pertained to the Safe Streets program, which
was not tested. Nevertheless, both Single Audits included findings
applicable to the Baltimore City Health Department: (1) inaccurate financial
reporting; (2) untimely financial reporting; (3) inadequate procedures for
financial reporting and grant accounting requirements; (4) untimely
liquidation of obligations; and (5) a lack of support for earmarking, program
income, and internal monitoring. We considered these findings, as well the
status of actions Baltimore agreed to undertake to resolve them, while
performing this audit.




       3
         A Single Audit is intended to provide a cost-effective audit for non-Federal entities in
that one consolidated audit is conducted in lieu of multiple audits of individual programs. The
Single Audit typically is conducted by an organization’s external auditors.

                                               5
Reporting

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports to describe the status of the
funds, compare actual accomplishments to the objectives, and report other
pertinent information.

Financial Status and Federal Financial Reports

      Prior to October 2009, the grantee was required to submit quarterly
Financial Status Reports (FSR) to OJP within 45 days after the end of each
quarterly reporting period. Beginning October 1, 2009, the Federal Financial
Reports (FFR) replaced the FSRs and are due 30 days after the end of each
calendar quarter. A final financial report is due 90 days after the end of the
grant period. The Financial Guide also states that these financial reports
should be accurate and disclose expenditures and unliquidated obligations at
the lowest funding level related to each grant. 4

      We reviewed the last four financial reports submitted during the award
period and found they were generally timely. One report was submitted 3
days late, which we did not consider to be material.

      For each sampled financial report, we sorted transactions posted to
each grant’s general ledger by date and added the entries by quarter. As
indicated in Exhibit 2, we found that the financial reporting of expenditure
amounts for both grants did not agree with the grantee accounting records.

                EXHIBIT 2: 2005 GRANT FINANCIAL REPORTS

                               Grant           Grant
                             Expenses       Expenses Per
              Report            Per          Accounting
            Period End        Report          Records              Difference
               Date             ($)             ($)                    ($)
             03/31/2009          34,176           15,156                (19,020)
             06/30/2009          32,637           32,870                     233
             09/30/2009        256,397           256,396                       1
             12/31/2009        119,301            29,150                (90,151)
           Source: OJP and grantee accounting records




       4
         Unliquidated obligations on a cash basis are obligations incurred, but not yet paid.
On an accrual basis, they are obligations incurred where an outlay has not yet been recorded.

                                              6
      Further, we reviewed four financial reports for the 2009 grant for
accuracy and, as shown in Exhibit 3, found that reported expenditure
amounts also did not agree with the grantee records.

               EXHIBIT 3: 2009 GRANT FINANCIAL REPORTS

                               Grant           Grant
                             Expenses       Expenses Per
              Report            Per          Accounting
            Period End        Report          Records              Difference
               Date             ($)             ($)                    ($)
             03/31/2010             960                 0                  (960)
             06/30/2010          58,800                 0               (58,800)
             09/30/2010               0                 0                      0
             12/31/2010               0             4,935                  4,935
           Source: OJP and grantee accounting records

      To ascertain what caused the discrepancies between actual and
reported figures, we asked a Baltimore official how they prepared the
financial reports. The official told us that they do not usually base reported
quarterly financial activity on transaction details by quarter. Instead, the
grantee generates a summary record, referred to as a “Level III,” and
compares the total reported financial activity on the Level III against the
financial activity noted on the prior financial report to calculate the total
expenses for the quarter. However, for the financial reports we tested, our
review of the summary records did not always produce the reported
expenditure amounts. Baltimore officials noted that after they converted to
a new city-wide accounting system, they found it difficult to reconcile the
summary records to the general ledger. 5

     We believe that Baltimore’s reliance on these summary records to
generate financial report data does not result in accurate financial reports.
Inaccurate financial reports impede OJP’s ability to monitor grant progress.
Therefore we recommend OJP require that Baltimore develop procedures to
ensure future financial reports are accurate.

Progress Reports

      The grantee was also required to submit semi-annual progress reports
setting forth grant accomplishments. According to the OJP Financial Guide,

       5
         The Baltimore City Single Audit Report for the Fiscal Years ending June 30, 2009 and
June 30, 2010 contained similar findings of inaccurate financial reporting for other grantee
programs.

                                             7
progress reports are due every six months for the life of the grant on
January 30 and July 30. We tested the last two reports of the 2005 grant
for accuracy. We compared the progress reports content with supporting
Baltimore contractor documents that detailed the mediation meetings, client
outreach and services, face-to-face contacts, and recruitment activities
performed each month. This comparison demonstrated that the tested
progress reports were accurate.

     The progress reports for the 2005 grant were mostly on time with the
exception of two reports, which we found were 3 and 62 days late,
respectively. However, because the 2005 grant has already ended and the
two progress reports for the 2009 grant were timely, we do not take any
exception.

Recovery Act Reports

      For Recovery Act grants, grantees are required to report quarterly to
FederalReporting.gov website their grant expenditures and the number of
jobs created or saved. We reviewed the grantee’s reports on jobs created or
saved by Recovery Act funds. As of June 30, 2011, the grantee reported
creating or saving 15.5 new jobs, including one part-time Baltimore
employee and 15 contractor employees. The Recovery Act report accurately
reported jobs created or saved with grant funds.

Drawdowns

      According to the OJP Financial Guide, award recipients should request
funds based upon their immediate cash needs. This means that recipients
should time their drawdown requests to maintain the minimum cash on hand
needed within 10 days. As of February 5, 2012, the grantee had not drawn
down any grant funds for the 2009 grant. Baltimore officials stated that
they requested drawdowns for the 2005 grant to be reimbursed for grant-
related expenditures. As discussed above, when Baltimore converted to its
new accounting system in March 2009, certain transaction information, such
as the posting date, was lost. Because the actual date for each transaction
was not available on the 2005 grant’s general ledger, we could not confirm
whether Baltimore requested drawdowns strictly on a reimbursement basis
or whether it complied with the 10-day rule.

      On March 3, 2010 (which was 93 days after the end of the 2005
grant’s performance period), OJP sent Baltimore a notice that $442,511
remained available and would be de-obligated if not drawn down. The
grantee then drew down these remaining funds later that month. A


                                     8
Baltimore official explained that for most of the grant performance period
only one individual could request OJP drawdowns for the grantee. That
individual was out of the office on sick leave for a large portion of the year,
and as a result did not submit the drawdown request before OJP sent the
notification.

      As shown by Exhibit 4, Baltimore ultimately requested and received
three drawdowns totaling $1,479,965.

                    EXHIBIT 4: 2005 GRANT DRAWDOWNS

                      Drawdown Date                     Amount ($)
                   03/11/2008                                375,981
                   02/10/2009                                661,473
                   03/16/2010                                442,511
                     TOTAL DRAWDOWNS                     $1,479,965
                  Source: OJP

       According to the 2005 grant general ledger, Baltimore expended a
total of $1,455,219 in grant funds. A Baltimore official told us that the
difference between the drawdown amount and the funds expended, or
$24,746, should have been used to pay for accounting services performed
during the grant period. However, Baltimore was not able to provide
adequate support for this amount and as of June 30, 2011, $24,746
remained unexpended on the 2005 grant’s general ledger. Because the
grant performance period has expired and the funds remain unexpended, we
recommend that OJP remedy the $24,746 in overdrawn and unsupported
2005 grant funds as questioned costs.

Grant Expenditures

      The OJP Financial Guide establishes the factors affecting the
allowability, reasonableness, and allocability of costs grantees and
subrecipients may charge to DOJ grants. Baltimore established separate
sub-accounting codes in its general ledger to track costs incurred for each
grant. Exhibit 5 details the funds Baltimore spent or allocated to the two
Byrne grants. 6



       6
          For the 2009 grant, we refer to allocated costs instead of expenses, because, as of
February 5, 2012, the grantee did not request reimbursement of costs it has incurred as a
result of 2009 grant activities.



                                              9
       EXHIBIT 5: EXPENDED AND ALLOCATED GRANT CHARGES
                       BY COST CATEGORY

                                                      2005 Grant              2009 Grant
                                                       Amount                   Amount
            Cost Category                            Expended ($)            Allocated ($)
Payroll (Salary and Fringe Benefits)                        395,647                 13,619
Travel                                                       16,402                  2,635
Equipment                                                    15,783                      0
Supplies                                                     11,168                  3,905
Consultants and Contractors                                 951,290                307,693
Other                                                        64,929                  4,140
                               TOTAL                    $1,455,219               $331,992
Source: Auditor review of Baltimore general ledger account numbers 4000-419305-3160
        and 4000-485110-5750 as of June 30, 2011.

Non-Payroll Transactions

      The total charges allocated to the grants for non-payroll (salary and
fringe benefits) costs totaled $1,377,945. We judgmentally selected a
sample of 39 entries listed in the account numbers Baltimore used to track
grant expenses. 7 We tested 32 entries for the 2005 grant totaling
$1,054,965 and 7 entries for the 2009 grant totaling $314,403. The
purpose of this test was to assess whether costs charged or allocated to the
grants were adequately supported and allowable under the tenets of the OJP
Financial Guide. We determined that tested charges totaling $1,338,476
were properly supported and allowable. However, as indicated by Exhibit 6,
we identified $24,735 in unsupported and $6,157 in unallowable costs
allocated to the 2005 grant.




       7
          As described previously, the Baltimore Department of Health began using a new
city-wide accounting system in March 2009. We found that accountants made a series of
monthly adjusted journal entries to the new accounting code number (419305) established
for the 2005 grant to account for grant expenses paid before the conversion. Baltimore
stated that software problems led to these entries losing the original date of the transaction.

        As summary adjustments, entries in the new system actually comprised several
different transactions grouped as a single entry. For example, one entry for $10,831 in travel
costs was actually 27 separate disbursements paid to different employees for multiple grant-
related trips at variable dates. Our transaction testing therefore: (1) could not ascertain the
timeliness of grant-related payments and (2) selected a judgmental sample of different
accounting system entries instead of separate expenses.



                                              10
           EXHIBIT 6: 2005 GRANT UNSUPPORTED AND UNALLOWABLE NON-PAYROLL COSTS

                                                                                                              Unsupported Unallowable
                                           Charge Description                                                  Costs ($)   Costs ($)
 Contractor Fringe Benefits. Fringe benefit costs include Social Security and Medicare payments,
 medical fees, and unemployment taxes. A subrecipient invoice included $25,189 in fringe benefit costs
 that was charged to the grant. Documents only supported a total of $9,291 in fringe benefit costs,
 leaving $15,898 in charges that are unsupported.                                                                   15,898          0
 Travel. A single entry for $10,831 actually comprised 27 separate travel payments. Documents
 provided by the auditee supported only 9 of these payments totaling $3,240. Of the 18 remaining
 charges, 10 totaling $2,829 lacked documents necessary to support adequately the expense, such as
 hotel invoices or signed approvals. The auditee was unable to provide any documents to support 8 other
 charges totaling $4,762.                                                                                            7,591          0
 Office Supplies. An entry totaling $2,071 actually consisted of 14 separate charges. The auditee
 provided adequate support for 2 of these charges totaling $274. Six charges totaling $922 lacked
 adequate support such as invoices or proof of payment and we determined them to be unsupported. Six
 other charges totaling $875 were invoiced to other Baltimore projects that should not have been
 supported by 2005 grant funds.                                                                                       922         875
 Rent. A charge of $7,369, or over 35 percent of an overall rent bill of $19,650, was incorrectly allocated
 to the new accounting system number reserved for the 2005 grant. According to the rental approval
 documents, the grant should only have been charged 12.5 percent of the invoiced rent cost, or $2,456.
 The difference between these two figures is therefore unallowable.                                                     0       4,912
 Employee Training. Based on the support provided, $370 in employee training costs were misallocated
 to the 2005 grant when Baltimore converted to its new accounting system in June 2008. This charge is
 therefore unallowable.                                                                                                 0         370
 Food and Beverages. The auditee used grant funds to purchase three $500 gift cards that, in turn,
 were used to buy food and beverages for a Safe Streets program event. Submitted receipts supported
 $1,176 out of the $1,500 in gift card charges. The difference between the value of the gift cards and the
 receipts is therefore unsupported.                                                                                   324           0
                                                                                                   TOTALS         $24,735      $6,157
Source: Analysis of transaction support provided by Baltimore and contractor officials




                                                                    11
      Based on the results of our transaction testing, we recommend that
OJP remedy $24,735 in unsupported costs and $6,157 in unallowable costs
that Baltimore charged to the 2005 grant.

Payroll Transactions

      As noted at Exhibit 5, Baltimore spent $395,647 of 2005 grant funds
and $13,619 in 2009 grant funds on payroll costs. We therefore performed
payroll testing to verify whether these charges were reasonable, accurate,
and complete. For the two grants, we judgmentally selected two
nonconsecutive pay periods and reviewed the payroll documentation for
employees paid during those periods. Our testing found the salaries and
fringe benefits charged to the 2005 grant paid for the full time salaries of at
least 2 employees that worked solely on grant-related projects. As such, the
payroll charges allocated to the 2005 grant appear reasonable, accurate, and
complete.

      Under 2 C.F.R. § 225, subsection 8.h.(4), when employees supported
with federal funds work part-time on one award, the distribution of the
portion of their salaries or wages applicable to the award must be supported
by personnel activity reports or equivalent documents. 8 Baltimore allocated
to the 2009 grant half of the payroll costs associated with one employee.
This employee worked on multiple projects, only one of which was the
project supported by the 2009 grant. However, we found that Baltimore did
not require that this employee track the time spent on each project. As a
result, timesheets did not indicate how much time the employee worked on
objectives associated with the audited grant. Without such tracking, we
could not validate the $13,619 in payroll costs charged to the 2009 grant
against actual grant activity. In addition, the payroll costs allocated to the
2009 grant do not comply with the requirements set forth in 2 C.F.R. § 225.
We therefore recommend that OJP remedy $13,619 in unsupported 2009
grant payroll charges as questioned costs.




       8
          Personnel activity reports must: (1) reflect an after-the-fact distribution of the
actual activity of each employee, (2) account for the total activity for which each employee is
compensated, (3) be prepared at least monthly and coincide with one or more pay periods,
and (4) be signed by the employee. In addition, substitute systems for allocating salaries and
wages to Federal awards may be used in place of activity reports. Such systems may include
random moment sampling, case counts, or other quantifiable measures of employee effort.

                                              12
Accountable Property

      The 2005 grant had budgeted about $13,000 for equipment purchases.
Baltimore spent $8,879 on furniture and $4,012 on computers and
accessories. We sampled 10 items purchased with grant funds and
determined that Baltimore was using the items to support the Safe Streets
program.

Indirect Costs

       There were no indirect costs budgeted or expended for the 2005 grant.
The 2009 grant did budget $65,000 for indirect costs. However, at the time
of this audit, Baltimore did not allocate any indirect costs to this grant. We
noted that although the grantee developed a cost allocation plan to charge
indirect costs to grant expenditures, the cost allocation plan had not been
approved by OJP.

Supplanting

      The OJP Financial Guide requires award recipients to use funds to
supplement existing funds for program activities and not replace or supplant
funds that have been appropriated for the same purposes. If an award
recipient reduces funding for activities also supported by the grant, the
recipient needs to demonstrate that the expected or actual receipt of federal
funds did not cause the reduction in recipient-level funding.

       To determine whether Baltimore properly used 2005 grant funds to
supplement local funds, we assessed the terms and conditions of the grants
for indications of possible supplanting. 9 We found that the 2005 grant
established a new program, the Safe Streets initiative, which involved hiring
new employees and covered no preexisting duties. In addition, our review
of grant expenditures considered whether tested transactions were used to
supplant local funding. Based on our review of the grants and results of
transaction testing, we believe the grantee used federal funds to supplement
local funding as required.




      9
          As a Recovery Act award, 2009 grant funds could be used to supplant local funding.

                                             13
Management and Monitoring of Contractors

      The OJP Financial Guide provides that grantees “should ensure that
monitoring of organizations under contract to them is performed in a manner
that will ensure compliance with overall financial management
requirements.” The grantee funded four contracts under the 2005 grant,
two to administer different Safe Streets sites in different Baltimore
neighborhoods, one for program design and technical assistance, and a
fourth to procure an evaluation of the Safe Streets program’s effectiveness.

       The contractors supplied the Baltimore program manager with monthly
reports detailing their work. We found that the program manager also
performs monthly site visits to verify the monthly reports and meets with
senior contractor staff bi-weekly to obtain technical assistance. Although the
grantee funded several neighborhood sites with the 2005 grant, we learned
that one contractor did not adhere to the terms of the contract in that it did
not adhere to the program model and Baltimore subsequently terminated
the contract. Based on the monthly reviews and meetings and Baltimore’s
identification of contract discrepancies, we believe that Baltimore’s
monitoring efforts were sufficient to ensure adequate award performance at
the remaining neighborhood sites.

Budget Management and Control

       The Financial Guide states that grantees should expend grant funds
according to the budget approved by the awarding agency and included in
the final award, but that moving funds between approved budget categories
is allowable up to 10 percent of the total budget cost. However, whenever
the cumulative amount in changes exceed 10 percent of the total award
amount, prior approval from the awarding agency is required. We compared
the actual amounts spent in each budget category to the budgeted amounts
in the same categories for both grants and determined that the grantee did
not violate the 10-percent rule.




                                     14
Program Performance Measures and Accomplishments

      We reviewed compliance with grant requirements to measure and
evaluate accomplishments. Baltimore was awarded the two audited grants
to replicate a program implemented in Chicago called “CeaseFire” that was
found to have contributed to a decline in shootings and gang-related
homicides.

      As stated previously, the goals of Baltimore’s Safe Streets Program
were to: (1) reduce the incidence of violent crime in target communities,
(2) mobilize community members against violent crime, and (3) provide
services and conflict resolution to at-risk youth between the ages of 16 and
24. In 2009, the grantee recorded that Safe Streets: (1) provided outreach
to 209 high-risk persons, on average; (2) mediated 90 conflict incidents;
and (3) helped foster the employment or education of 119 clients.

       A January 2009 evaluation of the program by Johns Hopkins University
found that the Safe Streets Program was successful in reducing homicides
and shootings in neighborhoods where it was fully implemented. A July
2011 follow-up survey of 65 Safe Streets participants found that the
program had lasting positive effects. Eighty percent of respondents reported
that their lives were “better” following participation in the program. A
majority (52 percent) of respondents reported that Safe Streets outreach
workers had helped mediate disputes. Respondents reported a total of 70
disputes where an outreach worker stepped in to mediate the conflict. Of
the survey participants, 88 percent stated that Safe Streets helped them find
job opportunities. More than a third of participants reported needing help
with school placement or with a General Educational Development (GED)
certificate. The survey reported that 95 percent of these participants stated
that their outreach worker helped them acquire educational assistance.




                                     15
Recommendations

We recommend that OJP:

     1. Require that the Baltimore City Health Department strengthen its
        financial system controls so that future grant expenses are
        allocated to and tracked by the correct accounting code.

     2. Require that the Baltimore City Health Department develop
        procedures to ensure future financial reports are accurate.

     3. Remedy $24,746 in overdrawn and unsupported 2005 grant funds
        as questioned costs.

     4. Remedy $24,735 in unsupported costs that the Baltimore City
        Health Department charged to the 2005 grant.

     5. Remedy $6,157 in unallowable costs that the Baltimore City Health
        Department charged to the 2005 grant.

     6. Remedy $13,619 in unsupported payroll charges that the Baltimore
        City Health Department charged to the 2009 grant.




                                    16
                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to determine whether the Baltimore
City Health Department (Baltimore) used grant funds for costs that were
allowable, supported, and in accordance with applicable laws, regulations,
and terms and conditions of the grants, and to assess program performance
and accomplishments. To accomplish these objectives, we tested whether
Baltimore complied with essential grant conditions pertaining to: (1) internal
controls, (2) grant drawdowns, (3) grant expenditures, including personnel
and indirect costs, (4) budget management and control, (5) financial and
progress reports, (6) Recovery Act reporting, (7) program performance and
accomplishments, and (8) monitoring of contractors. We determined that
matching costs and program income were not applicable to the grants we
tested.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Unless otherwise stated in this report, our audit comprised a
review of activity associated with grant numbers 2005-DD-BX-1233 and
2009-SC-B9-0129 for the period June 1, 2005 to June 30, 2011.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audit against are contained in the Office of Justice Programs
Financial Guide, applicable Office of Management and Budget regulations,
the Recovery Act and the awarding documents.

       Although we did not audit the performance, adequacy or reliability of
the financial management system for the City of Baltimore as a whole, we
did review the written accounting policies and procedures employed by the
grantee, an agency within the City of Baltimore, for this accounting system,
and the two most recent Single Audits for the City of Baltimore. We
reviewed the timeliness and accuracy of financial and progress reports,
reviewed performance to grant objectives, and evaluated the grantee’s
monitoring of the contractors. For our review of program performance
measures and accomplishments, we largely relied upon the results of a
January 2009 study evaluating the interim results of the Safe Streets


                                      17
program. The study was commissioned by the City of Baltimore and
performed by specialists with the Center for the Prevention of Youth Violence
from the Johns Hopkins Bloomberg School of Public Health in Baltimore,
Maryland.

       In conducting our audit, we performed sample testing in drawdowns,
grant expenditures, and property management. To accomplish the
objectives of the audit, we interviewed grantee officials and examined grant
activity records. We also employed a judgmental sampling design to obtain
broad exposure to numerous facets of the grants reviewed, such as dollar
amounts or expenditure category. We identified samples of non-payroll
expenditures, payroll expenditures and 10 items of accountable property.
This non-statistical sample design does not allow projection of the test
results to the universes from which the samples were selected.

      We performed audit work at Baltimore City Health Department office
space in Baltimore, Maryland. In addition, we relied on computer-generated
data contained in the Baltimore financial accounting system and in OJP’s
Grants Management System (GMS) regarding payment amounts, drawdown
requests, and dates of transactions. We noted that some of the 2005 grant
transaction dates recorded in the Baltimore financial system were incorrect
due to irregularities encountered while converting to a new accounting
system and we adjusted our analysis and conclusions because of this. We
did not establish the reliability of the data contained in OJP’s GMS as a
whole. However, when the data used is viewed in context with other
available evidence, we believe the opinions, conclusions, and
recommendations relying on this data and included in this report are valid.




                                     18
                                                                         APPENDIX II

             SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS 10                                        AMOUNT               PAGE

Unsupported Costs

For Grant Number 2005-DD-BX-1233:

       1.   Unspent grant funds                                  $24,746          9
       2.   Contractor Fringe Benefits                            15,898          11
       3.   Travel                                                 7,591          11
       4.   Office Supplies                                          922          11
       5.   Food and Beverages                                       324          11

For Grant Number 2009-SC-B9-0129:

       6. Part-time Employee Payroll                               13,619         12

                 Subtotal Unsupported Costs                     $63,100

Unallowable Costs

For Grant Number 2005-DD-BX-1233:

      1. Rent                                                       4,912         11
      2. Office Supplies                                              875         11
      3. Training                                                     370         11

                  Subtotal Unallowable Costs                      $6,157

TOTAL QUESTIONED COSTS                                          $69,257




       10
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable.



                                            19
                                                                               APPENDIX III

   OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
               DRAFT AUDIT REPORT


                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




July 18, 2012


MEMORANDUM TO:               Troy M. Meyer
                             Regional Audit Manager
                             Washington Regional Audit Office
                             Office of the Inspector General
                             /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of the Office of Justice
                             Programs Edward Byrne Memorial Discretionary Grants Awarded
                             to the Baltimore City Health Department, Baltimore, Maryland

This memorandum is in response to your correspondence, dated June 7, 2012, transmitting the
subject draft audit report for the Baltimore City Health Department (BCHD). We consider the
subject report resolved and request written acceptance of this action from your office.

The draft audit report contains six recommendations and $69,425 in questioned costs. The
following is the Office of Justice Programs’ (OJP) analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.




                                             20
1.     We recommend that OJP require the BCHD to strengthen its financial system controls so
       that future grant expenses are allocated to and tracked by the correct accounting code.

       We agree with the recommendation. We will coordinate with the BCHD to obtain a copy
       of procedures implemented to ensure that future grant expenses are allocated to, and
       tracked by, the correct accounting code.

2.     We recommend that OJP require the BCHD to develop procedures that ensure
       future financial reports are accurate.

       We agree with the recommendation. We will coordinate with the BCHD to obtain a copy
       of procedures implemented to ensure that future financial reports are accurate.

3.     We recommend that OJP remedy the $24,746 in overdrawn and unsupported grant
       funds for award number 2005-DD-BX-1233.

       We agree with the recommendation. We will coordinate with the BCHD to remedy the
       $24,746 in overdrawn and unsupported grant funds for award number
       2005-DD-BX-1233.

4.     We recommend that OJP remedy the $24,735 in unsupported costs that the BCHD
       charged to grant number 2005-DD-BX-1233.

       We agree with the recommendation. We will coordinate with the BCHD to remedy the
       $24,735 in unsupported costs that the BCHD charged to award number
       2005-DD-BX-1233.

5.     We recommend that OJP remedy the $6,325 in unallowable costs that the BCHD
       charged to award number 2005-DD-BX-1233.

       We agree with the recommendation. We will coordinate with the BCHD to remedy the
       $6,325 in unallowable costs that the BCHD charged to award number
       2005-DD-BX-1233.

6.     We recommend that OJP remedy the $13,619 in unsupported payroll charges that
       the BCHD charged to award number 2009-SC-B9-0129.

       We agree with the recommendation. We will coordinate with the BCHD to remedy the
       $13,619 in unsupported payroll charges that the BCHD charged to award number
       2009-SC-B9-0129.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.




                                              21
cc:   Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Tracey Trautman
      Acting Deputy Director for Programs
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

      Melanie Davis
      Grant Program Specialist
      Bureau of Justice Assistance

       Louise Duhamel, Ph.D.
      Acting Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20120889




                                            22
                                                                            APPENDIX IV

   BALTIMORE CITY HEALTH DEPARTMENT’S RESPONSE
               TO THE DRAFT REPORT
                                                          HEALTH DEPARTMENT
  CITY OF BALTIMORE                               OXIRIS BARBOT, M.D., Commissioner
STEPHANIE RAWLINGS-BLAKE, Mayor                           1001 E. Fayette Street
                                                          Baltimore, Maryland
                                                          21202

 July 09, 2012
 Troy M. Meyer
 Regional Audit Manager
 Office of the Inspector General
 United States Department of Justice


 Dear Mr. Meyer:

 On behalf of the Baltimore City Health Department (BCHD), we would like to thank your
 agency for its recent audit of our Safe Streets Program whose mission is to develop
 projects for the benefit of teenagers and young adults at risk of committing violent crimes
 in targeted neighborhoods of the City of Baltimore.
 In response to your agency's audit of our program grants (2005-DD-BX-1233 and 2009-
 SC-B9-0129) we respectfully provide the following information for your consideration.
 1. Internal Control
  Federal financial regulations require that an award recipient allocate and monitor costs
  properly.
 The audit found that the city's conversion from the old to the new accounting system
 resulted in the loss of transaction dates for entries occurring before the conversion, the
 incorrect mapping of transactions between various subaccounts, and numerous
 adjusting and reversing entries. The report recommends that the department strengthen
 its financial system controls for the proper allocation and tracking of expenses.
 We concur with the finding and recommendation. We have implemented more effective
 measures to allocate expenses and to monitor transactions and provided improved
 training to staff accountants. Supervisors will review their work more assiduously.
 2. Reporting

 According to the Financial Guide of the United States Department of Justice (USDJ)
 award recipients are required to submit complete, accurate, and timely periodic
 programmatic and fiscal status reports.

                                             23
The reports finds that BCHD failed to do so on all occasions. The report recommends
that BCHD develop procedures to ensure that future reports are accurate.

We concur with the finding and recommendation. We have adopted more effective
measures to ensure compliance with the complete, accurate, and timely submission of
all required reports.

3. Drawdowns

According to the USDJ Financial Guide award recipients should request funds based on
their immediate cash needs. This means that recipients should time their drawdown
requests to maintain the minimum cash on hand needed within ten days.

The audit finds that the auditors could not confirm whether BCHD drew down its funds in
compliance with the ten day rule or whether it drew down its funds on a reimbursement
basis. According to the report, BCHD was not able to substantiate $24,746 in salary
expense charged to the grant for which it drew the funds. The report recommends that
BCHD repay the excess revenue.

We concur with the finding and recommendation. We have adopted measures to ensure
that drawdowns are made in conformance with federal financial regulations. Please see
section 10.

4. Grant Expenditures

The USDJ Financial Guide establishes factors affecting the allowability,
reasonableness, and allocability of expenses that award recipients may charge to USDJ
grants.

The schedule in exhibit 6 on page 12 of the audit report lists several items totaling
$24,735 in unsupported costs and $6,325 in unallowable costs.

We accept the disallowance of most costs, except for the following items per the
attached documentation and the explanation in section 10 (appendix II).

a. office supply -unsupported cost -$18
b. office supply -unallowable cost -$875
c. employee training -unallowable cost -$370
d. telephone overhead -unallowable cost -$168

5. Supplanting

The USDJ Financial Guide requires award recipients to use funds to supplement
existing funds for program activities and not to replace or to supplant funds that have
been appropriated for the same purposes. If an award recipient reduces funding for
activities also supported by the grant, the recipient needs to demonstrate that the

                                          24
expected or actual receipt of federal funds did not cause the reduction in recipient-level
funding.

The report states that the grant for 2005 established a new program, Safe Streets
Initiative, which involved the hiring of new employees and covered no preexisting duties.
The report states that the program used federal funds to supplement local funding as
required.

This situation is not a finding and is permissible according to the USDJ Financial Guide.

6. Management and Monitoring of Contractors

The USDJ Financial Guide provides that award recipients should ensure that monitoring
of organizations under contract to them is performed in a manner in compliance with
overall financial management requirements.

BCHD contracted with four organizations to administer the program in several city
neighborhoods. The report finds that the program's monitoring efforts were adequate
with respect to the three contractors and inadequate with regard to one contractor.

The department accepts the finding and has strengthened its monitoring efforts
regarding all contractors of the program. Program and fiscal personnel will review all
requests for reimbursements of costs by contractors and ensure that contractors
provide all supporting documentation to justify payment.

7. Budget Management and Control

The USDJ Financial Guide states the award recipients should expend grant funds
according to the budget and included in the final award approved by the awarding
agency. They also may move funds up to ten percent of the total budget cost between
approved budget categories. Cumulative amounts exceeding ten percent of the total
award amount require approval by the awarding agency.

The audit determines that the department was in compliance with its management of the
budget.

8. Program Performance Measures and Accomplishments

The auditors reviewed the program performance measures and accomplishments.
BCHD received two audited awards for its Safe Streets Program to replicate a program
modeled on the Cease Fire Program of the City of Chicago. The goals of Baltimore's
program included the reduction in the incidence of violent crime in targeted
communities, the mobilization of communities against violent crime, and the provision of
services and conflict resolution to at risk youth.



                                           25
An evaluation of the program by the Johns Hopkins University found that the Safe
Streets Program was successful in the reduction of shootings and homicides in
communities where it was implemented. A subsequent survey found that 80% of the
participants reported that the program caused improved in their lives, 52% reported that
the program helped to mediate conflicts, 88% reported that the program assisted them
to find jobs, 33% reported that the program helped them with school placement, and
95% reported that the program provided educational assistance.

9. Recommendations

BCHD accepts USDJ's recommendations regarding the adherence to and
implementation of appropriate internal fiscal controls with respect to the allocation and
monitoring of expenses to the correct budget account numbers, the reconciliation of
financial records and reports, and the timely submission of complete and accurate
periodic programmatic and fiscal reports.

To these ends, BCHD has instituted measures to require that the program and fiscal
staffs prepare reports based on supporting documentation and that supervisory
managerial personnel monitor the due dates of such reports and review them in
conformance with regulatory grant requirements.

10. Schedule of Dollar Related Findings (Appendix II)

BCHD accepts the dollar related audit findings in the amount of $54,375 but respectfully
disagrees in the amount of $15,050. Please see the following detailed explanations, the
schedule of contested amounts, and the appropriate supporting documents.

A. Unsupported Costs: Grant 2005-DD-BX-1233

1. unspent grant funds    $24,746 requested. We agree.
2. contractor expenses    $15,898 requested. We agree.
3. travel                 $7,591 requested. We agree.
4. office supply          $922 requested. We disagree with $18.
5. food and beverage      $324 requested. We agree.

B. Unsupported Costs: Grant 2009-SG-B9-0129

6. personnel              $13,619 requested. We disagree.


C. Unallowable Costs: Grant 2005-DD-BX-1233

1.   rent                  $4,912 requested. We agree.
2.   office supply         $875 requested. We disagree.
3.   telephone overhead    $168 requested. We disagree.
4.   training              $370 requested. We disagree.

                                           26
A. 4. and C. 2. Regarding the invoices for office supply, we are requesting that these
invoices be reconsidered as allowable expenses. When the Safe Streets Program was
initially established, it shared work space with other departmental programs. However,
due to a lack of employees in the Safe Streets Program during its start-up phase,
personnel from other programs provided administrative assistance. Even though we
have established policies and internal controls in place, these personnel were not
familiar with the peculiarities of the program in which they were assisting. Consequently,
they sometimes inadvertently commingled purchase orders belonging to the Safe
Streets Program with those of other programs and listed the incorrect name of the
program and budget account number on invoices for office supplies designated for the
Safe Streets Program. In an attempt to prevent a recurrence of these kinds of errors, we
have provided additional training to personnel. We believe that the contested invoices
represent expenses that are ordinary, reasonable, and necessary for the operation of
program. We contest $18 in the 2005 grant.and $875 in the 2009 grant.

In the 2005 grant the auditors disallowed $18 due to missing documentation to
substantiate the cost .of office supplies. We have attached the relevant invoice to prove
the cost.

In the 2009 grant several invoices totaling $834 had the incorrect name of the program
on them but were legitimate expenses of the Safe Street Program. See the explanation
above. In addition, the auditors disallowed $41 for the cost of a heater which it found
unbudgeted. We treated this item as an office supply rather than as a capital item due
to its immaterial amount.

B. 6. Regarding the costs for the program assistant, we submit the following justification.
During the period of time reviewed by the audit, the Office of Youth Violence Prevention
(OYVP) had two Program Assistant II positions. One program assistant was responsible
for the administration of the Safe Streets Program and the other for the management of
the Safe Kids Program. For nearly a year from August 2010 to June 2011 the Safe Kids
Program had a vacant position for which the program assistant for the Safe Streets
Program was the only person trained to fulfill the duties of the vacant position. These
duties included processing payroll, ordering supplies, and managing the purchasing
processes.

Moreover, the Safe Streets Program personnel assisted with doing data research and
analysis, writing grant applications and proposals, reporting, managing the program,
performing monthly poster count audits at each Safe Streets site, planning and
preparing meetings and events, and conducting daily web searches related to media
regarding Safe Streets.

The Safe Streets Program will work with the Baltimore City Health Department Fiscal
Office to develop and to implement a policy to document the time and effort of
employees working on multiple projects. The program will include personnel activity
reports and details of the employee time tracking process as a part of the policy.


                                            27
We believe that the $13,619 in personnel cost charged to the grant represent a
legitimate and fair allocation of ordinary, reasonable, and necessary expenses.

C. 3. With regard to the telephone overhead charge, the phone lines operated by the
Safe Streets Program are under the control of the Municipal Telephone Exchange
(MTE), a municipal agency responsible for the management of all city phone lines. In
addition to the regular monthly charges, MTE imposes a small administrative fee to
support its staff which provides communication services to city agencies and programs.
Please see MTE's attached policy. We believe that the fees charged to the program are
ordinary, reasonable, and necessary for the operation of the city's communication office
and program's telephone service.

C. 4. With respect to the cost for employee training, two of our program personnel
responsible for the management of the program were required to attend a training
workshop involving the conversation to a new municipal payroll system. These
personnel are responsible for an array of functions necessary for the overall
administration of the program, even if the functions happen to be incidentally
administrative in nature. The Baltimore City Department of Human Resources which
provided the training billed $370 to BCHD for the cost per the attached documentation.
We believe that the cost is an ordinary, reasonable, and necessary expense of program
administration.

In conclusion, we would like to thank you for your continued support of our programs
which are making a significant impact on the improvement of the quality of life for the
residents of the City of Baltimore. We look forward to many years of a collaborative and
productive relationship.




                                           28
                                                               APPENDIX V

           OFFICE OF THE INSPECTOR GENERAL
          ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to OJP and the Baltimore
City Health Department (Baltimore). The responses are incorporated
respectively as Appendices III and IV of this final report. The following
provides the OIG analysis of the responses and summary of actions
necessary to close the report.

  1. Resolved. OJP concurred with our recommendation to require the
     grantee to strengthen its financial system controls so that future grant
     expenses are allocated to and tracked by the correct accounting code.

     Baltimore concurred with our recommendation to strengthen its
     financial system controls so that future grant expenses are allocated to
     and tracked by the correct accounting code. Baltimore stated in its
     response that it has implemented more effective measures to allocate
     expenses and to monitor transactions. Additionally, Baltimore has
     provided improved training to its staff accountants.

     This recommendation can be closed when we receive written evidence
     that Baltimore has implemented new procedures to allocate expenses
     and to monitor transactions by the correct accounting codes and
     evidence that the staff accountants have been trained accordingly.

  2. Resolved. OJP concurred with our recommendation that the grantee
     develop procedures to ensure that future financial reports are
     accurate.

     Baltimore concurred with our recommendation to develop procedures
     to ensure that future reports are accurate. Baltimore stated in its
     response that it has adopted more effective measures to ensure
     compliance with the complete, accurate, and timely submission of all
     required reports.




                                     29
  This recommendation can be closed when we receive written evidence
  that Baltimore has implemented procedures to ensure that future
  submissions of its financial reports are accurate.

3. Resolved. OJP and Baltimore concurred with our recommendation to
   remedy the unsupported $24,746 in overdrawn and unsupported 2005
   grant funds. This recommendation can be closed when we have
   evidence that the unsupported costs have been remedied.

4. Resolved. OJP concurred with our recommendation to remedy the
   unsupported costs of $24,735 charged to the 2005 grant.

  Baltimore concurred with our recommendation regarding the $24,735
  of unsupported 2005 grant charges, but for one invoice included in this
  sum for $18 of unsupported office supplies. With its response,
  Baltimore has included a copy of the invoice supporting this $18
  charge. However, there is nothing written on the invoice that would
  suggest that this $18 charge relates to the Safe Streets program or
  the 2005 grant in particular. Therefore, we believe the $18 charge to
  the 2005 grant for office supplies remains unsupported. This
  recommendation can be closed when we have evidence that OJP has
  remedied the $24,735 of questioned costs charged to the 2005 grant.

5. Resolved. OJP concurred with our recommendation to remedy the
   identified unallowable costs charged to the 2005 grant.

  Baltimore concurred with our recommendation regarding $4,912 of the
  $6,157 identified as unallowable 2005 grant charges. The $1,245
  difference pertains to two charges that Baltimore believes to be
  allowable: $875 for office supplies and $370 for employee training.

  The $875 of unallowed office supplies were comprised of a number of
  charges. However, the charges cited in the report as unallowable were
  supported by invoices to programs or projects that did not appear
  related to the Safe Streets program. In its response, the grantee
  stated that even though the invoices carry the names of programs
  other than Safe Streets, the charges are the legitimate expenses of
  the Safe Streets program. However, because the invoices carry the
  names of programs other than Safe Streets, it is not possible for us to
  determine, based on these documents, whether these charges are




                                 30
       legitimate expenses of the Safe Streets program. 11 Therefore, based
       on the information provided by the grantee, the $875 of office supplies
       remains unallowable.

       The $370 of unallowable employee training costs is for two of
       Baltimore’s program personnel to attend a training program relative to
       the conversion to a new municipal payroll system. According to the
       grantee’s response, these two personnel are integrally responsible for
       the overall administration of the program, so Baltimore believes this
       cost is an ordinary and necessary expense of the Safe Streets program
       administration. However, the allocation of costs for administrative
       training required of all Baltimore City employees is not provided for in
       the grantee’s budget; only program-related training is provided for in
       the budget. Since the training was administrative and not program
       specific, the $370 charge remains unallowable.

       We note Baltimore’s response provided additional information we
       believed sufficient to support a $168 telephone charge. We updated
       our report to remove this charge from our schedule of dollar-related
       findings.

       This recommendation can be closed when we have evidence OJP has
       remedied the $6,157 of unallowed costs charged to the 2005 grant.

   6. Resolved. OJP concurred with our recommendation to remedy
      $13,619 in unsupported payroll costs charged to the 2009 grant.

       Baltimore does not concur with our recommendation. Baltimore states
       in its response that the $13,619 allocated to the 2009 grant is a fair
       and reasonable allocation of this employee’s payroll to the 2009 grant,
       explaining that this employee fulfilled functions for the Safe Streets
       program when Safe Streets did not have someone in its Program
       Assistant II position. However, Baltimore acknowledges this employee
       was working on multiple programs during this timeframe and that the
       employee did not prepare a timesheet showing the time she spent
       among programs. Simply allocating half of the employee’s time to this
       grant is not sufficient evidence that half of her time was actually spent
       working on Safe Streets activities. Further, while Baltimore states in
       its response that it is willing to work with its Fiscal Office to develop a

       11
           Included in the $875 unallowable cost figure was a $41 charge for a space heater.
In its response, Baltimore stated that we considered this charge unallowable because it was
not included in the grant budget. However, the heater cost was questioned because the
invoice provided to support the charge was to “OPHPR” and not the Safe Streets program.


                                            31
policy and template for reporting time for employees who work on
multiple projects, we note such a procedure must, at a minimum,
permit the employee to contemporaneously record the time actually
spent working on different grants that can then be approved by a
supervisor. Therefore, we conclude the $13,619 of payroll charges to
the 2009 grant remains unsupported.

This recommendation can be closed when OJP provides documentation
that supports or otherwise remedies the $13,619 in unsupported
payroll costs charged to the 2009 grant.




                              32
